No. 20-8363
IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020
OUTHDORM ROS, Petitioner
v.
PEOPLE OF THE STATE OF CALIFORNIA, Respondent
SUPPLEMENTAL PROOF OF SERVICE FOR PETITION FOR
A WRIT OF CERTIORARI TO THE CALIFORNIA COURT
OF APPEAL, FOURTH APPELLATE DISTRICT,
DIVISION ONE
I reside in the county of SAN DIEGO, State of California. I am over
the age of 18 and not a party to the within action; My business address is
16935 West Bernardo Drive, Suite 260, San Diego, CA 92127. On June 21,
2021, I served the foregoing documents described as:
1. MOTION TO PROCEED ON WRIT OF CERTIORARI IN FORMA
PAUPERIS
2. DECLARATION OF JOHN L. STALEY IN SUPPORT OF MOTION TO
PROCEED ON WRIT OF CERTIORARI IN FORMA PAUPERIS
3. PETITION FOR A WRIT OF CERTIORARI TO THE CALIFORNIA
COURT OF APPEAL, FOURTH APPELLATE DISTRICT, DIVISION ONE
on all parties to this action by placing a true copy thereof enclosed in a sealed
envelope addressed as follows:
Office of the Attorney General
P. O. Box 85266
San Diego, CA 92186-5266
(Also sent electronically in PDF format to Matthew.Mulford@doj.ca.gov; the
deputy attorney general for the State of California for the case in the
1

California Court of Appeal, Fourth Appellate District, Division One)
All parties required to be served have been served.
I caused such envelope with postage thereon fully prepaid to be placed in the
United States Mail at San Diego, California. Executed on June 21, 2021, at
San Diego, California. I declare under penalty of perjury under the laws of
the State of California that the above is true and correct.
This Supplemental Proof of Service is being filed because the original proof of
service had an incorrect address for the Office of the Attorney General for the
State of California.
John L. Staley
United States Supreme Court
Court Bar No. 235559
16935 West Bernardo Dr.
Suite 260
San Diego, CA 92127
(858) 335-2713
Johnstaleylaw@gmail.com
Counsel of Record

2

